                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A02110054
                                                                                  11           Page 1 of 1



          We received allegations concerning the management of an NSF division.' During the course of our
          investigation, we interviewed eight people who worked in the division in question2and two others3
          to determine whether there was any substance to the allegations and what role, if any, NSF OIG
          Investigations should play. Ultimately, we determined that many of the allegations concerned
          management actions that were more properly addressed either by the agency or grievance and other
          processes already in place. We were unable to substantiate any allegations that concerned a violation
          of law. Two of the issues raised by this case were audit rather than investigative issues;
          consequently, we referred them to Audit. Because there are no further issues that are properly within
          the scope of an OIG investigation, this case is closed.




NSF OIG Form 2 (1 1/02)
